        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Improvements Needed in the
Department's Emergency
Preparedness and Continuity of
Operations Planning




DOE/IG-0845                         January 2011
                             Department of Energy
                                Washington, DC 20585
                                     January 3, 2011


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Improvements Needed in
                         the Department's Emergency Preparedness and Continuity of
                         Operations Planning"

BACKGROUND

The Department of Energy's diverse mission is directly related to helping resolve many of
the energy, environmental, and nuclear security challenges that face the Nation. As a
consequence, the Department's operations involve dangerous substances such as nuclear
and hazardous materials. In this context, the Department must: (i) ensure that it can
quickly and effectively respond to emergencies at its facilities; and, (ii) be prepared to
maintain or resume mission-related work following an emergency. The National Nuclear
Security Administration (NNSA) has responsibility for developing the Department's
overall emergency preparedness and continuity planning policy. Individual Department
elements, including NNSA, are responsible for implementing those requirements.

Effective emergency preparedness, response, and recovery require coordinated planning
and actions by many parties. As part of this overall preparedness strategy,
comprehensive Continuity of Operations (COOP) planning ensures that essential
Department, program, and site functions continue during and following a major
disruption. An Office of Inspector General report on The Department's Continuity
Planning and Emergency Preparedness (DOE/IG-0657, August 2004) found that the
Department had not implemented effective continuity of operations and emergency
preparedness programs. The Department agreed to correct the problems addressed in the
2004 report.

Because of the significance of the issues involved here, we initiated this audit to
determine whether the Department had corrected previously reported problems and
implemented an effective and comprehensive emergency preparedness program.

RESULTS OF AUDIT

Our review disclosed significant weaknesses in the Department's emergency
preparedness and COOP programs. These programs are closely related but individually
managed. For this reason, we have addressed these issues in this report separately.
                                            2


                                Emergency Preparedness

Despite various corrective actions, the Department had not fully resolved problems in
emergency preparedness planning. For instance, at the four sites included in our review,
we found that:

         Sites had not completed all required emergency planning. Notably, our review
         of 2009 emergency readiness reports disclosed that programs and sites had not
         finally approved 105 of the 140 Hazards Surveys and 39 of the 74 Emergency
         Planning Hazards Assessments (EPHA) that were required – actions necessary
         to accurately assess and respond to hazards;

         At three of the four sites we visited, we found that officials were not always
         adequately resolving emergency management issues. Some of these issues
         included the inability to communicate via established emergency networks, the
         lack of hazard identification planning, and inaccurate hazardous chemical
         tracking systems. These problems were identified over a multi-year period
         through drills, exercises, and assessments; and,

         Sites did not always share lessons learned and track performance metrics, as
         required, to augment corrective action processes. Officials also routinely failed
         to take advantage of the Department's Corporate Lessons Learned system when
         developing or modifying existing action plans. Furthermore, none of the field
         sites had adopted and implemented performance measures that covered the four
         key emergency management activities.

Weaknesses continued to exist because program emergency management coordinators
and cognizant field elements did not provide sufficient oversight or ensure contractor
compliance with existing requirements. Although we observed that the Department's
requirements and the implementing guidance were well defined, the effort to ensure full
implementation was less than adequate. For example, site offices had not always
performed or effectively administered the contracts for which they were responsible to
ensure actions designed to correct previously identified problems worked as planned.
The process employed to validate the completion of corrective actions and verify their
effectiveness was insufficient. Without a robust review process, including reviewing drill
and exercise reports, validating the completion of corrective actions and verifying their
effectiveness, emergency management issues may not be fully addressed. Additionally,
as noted, site and program offices had not promoted the sharing of lessons learned as a
means of improving the Department's emergency preparedness performed on a corporate
basis.

Insufficient emergency preparedness planning, including hazard identification, could
result in loss of life and/or the destruction of Government property. For instance, the
planning scenarios identified in EPHAs are used to tailor emergency response and ensure
sufficient resources are available to emergency responders. While management informed
us it had taken action to address the weaknesses we had reported, an important example
of weaknesses in emergency planning was outlined in our Inspection Report on Fire
Suppression and Related Services at Los Alamos National Laboratory (DOE/IG-0821,
                                           3


September 2009). In that situation, we found that contingency plans lacked the
information necessary for effective response to incidents and that fire fighters did not
have the knowledge of Los Alamos National Laboratory facilities necessary to effectively
respond in the event of an emergency, specifically, and perhaps most alarmingly, nuclear
facilities. Hazards Surveys and EPHAs drive emergency response by identifying
potential emergency conditions and analyzing potential consequences of a hazardous
material release. Because Hazards Surveys and EPHAs had not been completed, we
could not determine, and sites could not affirmatively demonstrate, that all significant
hazards at these sites had been identified and plans developed to guide emergency
response efforts. The nature of the Department's mission, including working with
dangerous and sometimes volatile materials, such as radioactive substances and
hazardous wastes, makes clear the need for "best-in-class" emergency preparedness
efforts throughout the complex.

To put this matter in context, we found that the Department had made progress in
creating and disseminating emergency preparedness policy requirements, and that some
sites had partially implemented those requirements. Sites had made incremental progress
toward completing required hazard planning and expressed their awareness of the need to
complete Hazards Surveys and EPHAs as expeditiously as possible. Based on the work
and advice of the Department-wide Performance Indicator Working Group, the Office of
Emergency Management and Policy issued new emergency preparedness guidance
requiring sites to begin tracking specific performance measures in 2010, such as the
percentage of completed Hazards Surveys, completed hazards assessments, and validated
corrective actions. Additionally, certain sites were sharing lessons learned locally and
nationally through the Department's Emergency Management Issues Special Interest
Group meetings. To ensure visibility and accountability for high priority findings, one
site had implemented policies and procedures requiring the use of the Department's
Corrective Action Tracking System for its own reviews. As evidenced by our findings,
however, more needs to be done to ensure full implementation of these requirements.
Therefore, this report includes a number of recommendations intended to promote
effective and comprehensive emergency management programs throughout the
Department.

                                Continuity of Operations

Although the Department issued its updated, overarching COOP plan subsequent to our
review, 55 percent of Department elements had not submitted their individual, updated
plans in accordance with DOE Order 150.1, Continuity Programs. With regard to those
plans that had been submitted, a number had not included full consideration of all
planning requirements. As a consequence, significant requirements under the directive
that were designed to address known program weaknesses, such as pandemic planning
and demonstrating the ability to respond to a COOP event through training, testing, and
exercising, had yet to be implemented.

Program COOP coordinators and field element managers did not provide adequate
oversight or ensure contractor compliance with key program requirements. As with the
emergency preparedness program, we observed that while the Department's requirements
and the implementing guidance were adequately defined, management had not effectively
ensured their implementation. Furthermore, program offices had not always verified
                                            4


whether COOP planning was complete; site offices had not always ensured that COOP
requirements had been incorporated in contracts; nor, had they ensured that contractors
had developed and implemented complete COOP plans, as was their responsibility under
the terms of the directive. Symptomatic of this lack of emphasis, program officials
indicated that they were often provided inadequate resources to support COOP planning.

The Department's ability to meet its primary national security mission-essential functions
after a catastrophic event or disruption could be diminished if COOP planning is
ineffective. Recent events, such as attempted domestic terrorism strikes and weather-
related crises demonstrate the need for comprehensive Department emergency
preparedness. Our review confirmed that the Department had made progress in creating
and disseminating COOP policy requirements to both program offices and field sites, and
some sites have partially implemented those requirements. As evidenced by the results of
our testing, however, additional effort is necessary to ensure full implementation of these
requirements. Therefore, we made a number of recommendations intended to promote
effective and comprehensive Continuity of Operations programs throughout the
Department.

MANAGEMENT REACTION

The Department and NNSA generally agreed with our recommendations and stated that
they had already taken action or would take action to address each of them. However,
management, in responding to a draft of the report and the recommendations, raised a
number of important concerns, including reservations about our characterization of
various aspects of the status of emergency preparedness. We have addressed
management's concerns in the body of the report.

Management's comments and our response are more thoroughly discussed in the body of
the report. Management's consolidated comments are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Health, Safety, and Security Officer, Office of Health, Safety, and Security
REPORT ON IMPROVEMENTS NEEDED IN THE DEPARTMENT'S
EMERGENCY PREPAREDNESS AND CONTINUITY OF OPERATIONS
PLANNING


TABLE OF
CONTENTS


Emergency Preparedness Planning

Details of Finding ......................................................................................................................... 1

Recommendations ......................................................................................................................... 6

Comments ..................................................................................................................................... 7


Continuity of Operations Planning

Details of Finding ......................................................................................................................... 9

Recommendations and Comments ............................................................................................... 12


Appendices

1. Objective, Scope, and Methodology ....................................................................................... 14

2. Prior Audit Reports ................................................................................................................ 16

3. Management Comments ......................................................................................................... 18
EMERGENCY PREPAREDNESS PLANNING

               The Department of Energy (Department) is responsible for
               maintaining the safety and security of nuclear materials,
               responding to nuclear incidents, and monitoring and managing the
               energy infrastructure. Many of these responsibilities involve the
               use of hazardous chemicals and special nuclear materials. As such,
               comprehensive emergency planning is required to ensure the
               protection of human lives and Government property; and
               continuity planning is essential to ensure that these vital functions
               continue in all circumstances. Our review disclosed significant
               weaknesses in the Department's Emergency Preparedness and
               Continuity of Operations Programs (COOP). Because these
               programs are closely related but individually managed, we have
               addressed these issues separately.

Emergency      Although the Department had made progress toward completing its
Preparedness   emergency preparedness planning, our review of Department
               Headquarters and four field sites disclosed that the Department had
               not fully implemented the recommendations made in the Office of
               Inspector General (OIG) report on The Department's Continuity
               Planning and Emergency Preparedness (DOE/IG-0657, August
               2004). Also, sites had not conducted all required emergency
               preparedness planning. Specifically, sites had not accurately
               assessed hazards, including completing all required Hazards
               Surveys and Emergency Planning Hazards Assessments (EPHAs)
               and effectively addressed emergency management issues identified
               through drills, exercises, and assessments. In addition, sites did
               not consistently use the Department's Corporate Lessons Learned
               System for sharing lessons learned across the Department.

                                 Hazard Identification Activities

               Two of the three hazardous material sites we visited – Argonne
               National Laboratory (Argonne) and Los Alamos National
               Laboratory (Los Alamos) – had not yet submitted and/or received
               site office approval of all initial Hazards Surveys and EPHAs, as
               required by Department Order 151.1C, Comprehensive Emergency
               Management System. In fact, at the time of our review, the
               Argonne Site Office had not approved any Hazards Surveys or
               EPHAs for the site. In contrast, the third hazardous materials site,
               the Hanford Site (Hanford), had Hazards Surveys and EPHAs in
               place for all facilities; and two of these EPHAs were pending site
               office review as part of the normal review cycle. Hazards Surveys,
               based largely on hazardous chemical inventories, are used to
               identify potential emergency conditions, while EPHAs analyze the
               potential consequences of a hazardous materials release. Site
               offices review and approve Hazards Surveys and EPHAs to ensure



Page 1                                                         Details of Finding
         that they are adequately performed and documented. These
         efforts, a key element of the hazard identification process, drive
         emergency response. Sites were required to complete Hazards
         Surveys and assessments by November 2006, and update them
         every 3 years or prior to new hazards being introduced at the site.
         Exacerbating these problems, contractor officials at two of the sites
         expressed concerns that hazardous chemical inventories used to
         identify and quantify hazardous chemicals within each facility may
         not have been updated timely and accurately. The table below
         illustrates the number of Hazards Surveys and EPHAs required,
         submitted, and approved by each of the sites, as stated in their
         Fiscal Year 2009 Emergency Readiness Assurance Plan (ERAP)
         reports.

                                 Hazards Surveys                    EPHAs
                                    Number    Number               Number    Number
                 Site     Required Submitted Approved Required    Submitted Approved
             Argonne           76          0        0        6            2        0
             Los Alamos        58        44        29      42            33       11
             Hanford1           5        5          5        26          26            24
             Fermi              1        1          1         0           0             0
             Totals           140       50         35        74          61            35


         While we noted delays in the submission and approval of Hazards
         Surveys and EPHAs, sites have made incremental progress toward
         completing required hazard planning. To their credit, sites are
         aware of the need to complete Hazards Surveys and EPHAs as
         expeditiously as possible. In addition, officials indicated that they
         had implemented certain items even though they had not yet been
         approved by the site. For instance, Los Alamos had not received
         approval for any Hazards Surveys or EPHAs as of the 2007 Office
         of Emergency Management Oversight review. Since developing a
         targeted action plan, however, the site has significantly reduced the
         number of outstanding Hazards Surveys and EPHAs. Further,
         Argonne officials indicated that they have hired a third party
         contractor to complete EPHAs, all of which have since been
         submitted for review.

                          Recurrent Emergency Management Issues

         Three of the four sites visited identified emergency preparedness
         weaknesses that recurred over a multi-year period. These issues,

         1
           The Hanford ERAP report lists 27 required EPHAs with 3 EPHAs pending site
         office review. Since the publication of the ERAP, however, one facility
         requiring an EPHA has been decontaminated and no longer requires this
         additional analysis.


Page 2                                                       Details of Finding
         identified during drills, exercises, and assessments, tend to
         demonstrate that site corrective actions were not always effective.
         Additionally, sites did not always share lessons learned and track
         performance metrics to augment corrective action processes, as
         required by Department regulations.

         For example, recurring emergency preparedness weaknesses
         included:

              All three Hanford hazardous materials contractors
               experienced drill communication equipment malfunctions.
               During multiple exercises, emergency personnel had to
               resort to alternate communication equipment, such as
               personally owned cellular phones, to communicate during
               the drills;

              At Argonne, where none of the Hazards Surveys and
               EPHAs had been approved, exercises conducted over a
               multi-year period indicated that the lack of hazard
               identification planning and needed protective actions had
               impeded emergency response; and,

              The need for an accurate hazardous chemical tracking
               system, as the basis for site Hazards Surveys and EPHAs,
               had been noted in multiple Emergency Management
               Oversight (EMO) and Los Alamos reviews since 2007.

         Recurring findings indicate weaknesses in the policies, procedures,
         and practices for correcting emergency management issues,
         particularly a lack of validation and verification. While site office
         management indicated that they already review and validate
         corrective actions, our audit and EMO reviews in 2007 and 2009,
         noted that tracking and resolution of corrective actions was not
         always effective. Furthermore, officials at Fermi National
         Accelerator Laboratory stated that emergency management
         weaknesses were addressed immediately following drills and
         exercises without generating a formal corrective action plan.
         Without evidence of actions taken, however, management cannot
         validate the completion of corrective actions or verify their
         effectiveness.

         In addition, the sites did not consistently utilize the Corporate
         Lessons Learned System to share lessons learned across the
         Department. Los Alamos and Argonne were the only sites with
         formal policies and procedures related to the tracking and sharing
         of lessons learned, and only Los Alamos used a site-wide lessons


Page 3                                                   Details of Finding
         learned system. Hanford contractors prepared lessons learned
         reports for internal use and stated that they routinely shared these
         with other contractors at the site. Although Hanford generated 23
         lessons learned from a sample of drills and exercises conducted
         between December 2007 and December 2009, only 5 lessons
         learned were shared through the Department's Corporate Lessons
         Learned System between 2004 and 2010. Since 2004, Argonne
         generated at least 12 lessons learned and did not share any of these
         in the Department's Corporate Lessons Learned System. In fact,
         only 24 emergency management lessons learned had been
         submitted to the Department's Corporate Lessons Learned System
         since 2004. While operations vary from site-to-site, we noted that
         contractors had identified similar emergency management issues,
         such as deployment of the emergency response organization,
         notification and communication processes, and adequacy of
         policies and procedures. The sharing of lessons learned, such as
         how a particular issue occurred and how it was resolved, enables
         the implementation of site best practices and could help other sites
         avoid similar adverse experiences.

         Although specifically required by DOE Order 151.1C, none of the
         four field sites visited adopted performance measures to capture
         and track objective data regarding the performance of four key
         emergency management activities: Planning, Preparedness,
         Readiness Assurance, and Response. All four sites had
         performance-based goals as part of their Performance Evaluation
         and Measurement Plans, such as performing a certain number of
         emergency management drills or assessments, and considered
         these to be performance metrics. However, evaluation of whether
         or not a site met these goals did not provide the Office of
         Emergency Operations a consistent view of emergency
         management performance across the Department. We did note that
         the Office of Emergency Management and Policy will require sites
         to track specific performance measures and include results in the
         2010 Emergency Readiness Assurance Plan. These measures,
         which were selected based on the work and advice of the
         Department-wide Performance Indicator Working Group, will
         include things such as qualifications of emergency response
         organization personnel, timeliness of annual emergency
         management program self-assessments, and timeliness of initial
         response decisions. When fully implemented, these measures
         should permit the Department to measure the percentage of
         completed Hazards Surveys, completed hazards assessments, and
         validated corrective actions.




Page 4                                                   Details of Finding
Management Review   The emergency preparedness issues we identified were due at least
and Oversight       in part to insufficient program and site office review and oversight.
                    Program emergency management coordinators and cognizant field
                    elements did not always provide effective oversight or enforce
                    contractor requirements. Although the Department's requirements
                    and the implementing guidance were adequately defined,
                    management did not fully oversee and enforce their
                    implementation. For example, site offices had not always
                    performed the oversight required to ensure contractor corrective
                    actions generated from drill and exercises were adequate,
                    especially validating the completion of corrective actions and
                    verifying their effectiveness. Argonne site office staff had not
                    performed a validation of contractor corrective actions since 2002.
                    Additionally, we noted that site and program offices had not
                    promoted the sharing of lessons learned through formal
                    documentation and distribution throughout the complex.

                    A Los Alamos official acknowledged that, in the past, the site had
                    not always prioritized the submission and approval of Hazards
                    Surveys and EPHAs required for emergency preparation. He
                    noted, however, that since a 2007 Office of Emergency
                    Management Oversight review, the site had completed Hazards
                    Surveys for predetermined nuclear, high risk, and moderate risk
                    facilities and, as such, he believed that the buildings with the
                    highest risk of hazards had been addressed. According to Argonne
                    officials, the time necessary to acquire subcontractor services to
                    perform Hazards Surveys and EPHAs and obtain site office
                    approval of subcontractor methodology, as well as the site office
                    backlog in approving final Hazards Surveys and EPHAs, delayed
                    the completion of these activities. While we recognize the efforts
                    of both of these sites, we note that because Hazards Surveys and
                    EPHAs had not been completed, we could not determine, and the
                    sites could not affirmatively demonstrate, that all significant
                    hazards at these sites had been identified and plans developed to
                    guide emergency response efforts.

Increased Risk      Insufficient emergency preparedness planning, to include hazard
                    identification, could result in loss of life and/or the destruction of
                    Government property. For instance, the planning scenarios
                    identified in EPHAs are used to develop Emergency Action Levels
                    (EALs), which enable emergency responders to immediately
                    deploy predetermined emergency responses. During a 2007 no-
                    notice exercise, Argonne staged a response to a tornado touchdown
                    at one of their hazardous facilities. While most of the exercise
                    objectives were met, exercise evaluators noted that Emergency
                    Operations Center staff provided the Incident Commander with



Page 5                                                               Details of Finding
                  inconsistent information on the quantity of hazardous materials
                  containers. Argonne did not have completed hazards assessments
                  or specific EALs at the 2007 exercise and, at the time of our
                  review, was still in the process of completing and approving these
                  assessments. Evaluators noted that the proper actions were taken
                  during the exercise; however, establishment of EALs, based on
                  postulated releases of identified hazardous materials inventories
                  and a comprehensive hazards assessment, would provide added
                  assurance that correct onsite and offsite protective actions were
                  being taken.

                  Without stringent review and monitoring – including reviewing
                  drill and exercise reports, validating the completion of corrective
                  actions, and verifying their effectiveness – emergency management
                  issues may not be completely resolved. The importance of these
                  planning elements was emphasized in a report from the Defense
                  Nuclear Facilities Safety Board regarding the Savannah River Site
                  in which it noted a gradual lapse in efforts to prepare for responses
                  to tornadoes, hurricanes, and earthquakes since 1999. Board
                  inspectors also noted that with multiple new contractors working at
                  the site, there is an increased need for integrated drills that focus
                  on the interfaces between contractors during a site-wide event.
                  The identification of corrective actions through an effective system
                  of drills and exercises mitigates the potential harmful effects to
                  both employees and the public.

RECOMMENDATIONS   To promote effective and comprehensive emergency management
                  programs throughout the Department, we recommend that the
                  Administrator, National Nuclear Security Administration (NNSA),
                  the Acting Under Secretary of Energy, and the Under Secretary for
                  Science strengthen the management review and oversight process
                  by requiring their respective emergency management coordinators
                  to:

                     1. Validate the effectiveness of actions taken to correct
                        deficiencies identified during emergency management
                        drills and exercises;

                     2. Require contractors to formally share emergency
                        management related lessons learned through the
                        Department's Corporate Lessons Learned System; and,

                     3. Ensure that Hazards Surveys and Emergency Planning
                        Hazards Assessments are completed expeditiously.




Page 6                                                          Recommendations
MANAGEMENT   The Department and NNSA generally agreed with our
REACTION     recommendations pertaining to emergency preparedness planning
             and stated that they had already taken action or would take action
             to address each of them. Management partially concurred with
             Recommendation 1, noting that program and site offices currently
             validate the effectiveness of emergency management corrective
             actions required by DOE Order 151.1C. Management partially
             concurred with Recommendation 2, stating that it will evaluate the
             extent of sharing of emergency management lessons learned
             through the Department's Corporate Lessons Learned System and
             encourage their submission where significant benefit may be
             achieved. Management concurred with Recommendation 3 and
             stated it will take steps to emphasize and ensure the completion of
             hazard identification activities.

             However, management expressed concerns over our
             characterization of various aspects of the remaining hazard
             identification planning work. Specifically, management was
             concerned that our report incorrectly implied that a lack of
             approved Hazards Surveys and EPHAs indicated an inability to
             respond during an emergency, even though the site had established
             and implemented an emergency planning basis and response
             procedures while awaiting site office approval.

AUDITOR      Management's comments and planned actions were generally
COMMENTS     responsive to our recommendations. With regard to management's
             comments on Hazards Surveys and EPHAs, because these
             documents form the basis for all subsequent emergency planning
             and because many of these hazard planning documents had not
             been approved, the Department and NNSA cannot confirm
             whether all hazards have been assessed and whether appropriate
             response strategies have been designed. We considered hazard
             identification planning to be complete once it received required
             site office approval. Accordingly, our report distinguishes between
             hazard identification planning that has been completed versus
             those lacking site office approval.

             In its comments, management notes that DOE Order 151.1C
             already requires the validation of effectiveness of actions taken to
             correct deficiencies identified during emergency management
             drills and exercises, as well as the sharing of lessons learned
             through the Department's Corporate Lessons Learned System.
             However, we found that these requirements had not been fully
             implemented in the field. For instance, multiple EMO reviews
             noted that tracking and resolution of corrective actions was not




Page 7                                                               Comments
         always effective. Additionally, since our 2004 audit report on
         emergency preparedness, only 24 lessons learned had been
         submitted to the Corporate Lessons Learned System.

         Similar to the COOP section of this report, various Department
         elements provided attachments to management's consolidated
         comments containing additional information that they believed
         would help clarify or improve portions of the report pertaining to
         emergency planning. While we did not include these attachments
         because of their volume, we took them into consideration and
         made changes where appropriate. Management's consolidated
         comments are included in Appendix 3.




Page 8                                                         Comments
CONTINUITY OF OPERATIONS PLANNING

Continuity of   Since our 2004 effort, the Department has made progress toward
Operations      completing its COOP planning. Specifically, the Department
                issued interim guidance in 2005, issued its first overarching COOP
                plan in 2006, and issued formal COOP implementation
                requirements in 2008. Despite this progress, our review of
                Department Headquarters and four field sites disclosed that the
                Department had not fully implemented the recommendations made
                in the OIG report on The Department's Continuity Planning and
                Emergency Preparedness (DOE/IG-0657, August 2004). Also,
                programs and sites had not conducted all COOP planning required
                by DOE Order 150.1, Continuity Programs. Subsequent to our
                review, the Department published its updated overarching COOP
                plan; however, many Department elements had not submitted their
                individual updated COOP plans.

                Despite the Department's effort over the past 5 years, opportunities
                remain to strengthen COOP planning. Beginning in 2007, the
                President and the Department of Homeland Security issued new
                directives related to COOP planning. As a result, the Department
                established its formal COOP planning and implementation
                requirements in May 2008. As the Department's mission was
                carried out at both Headquarters and in the field, all elements were
                required to write and implement updated COOP plans by
                May 2009, a year after DOE Order 150.1's issuance. However, the
                Department postponed issuance of its updated overarching COOP
                plan until its Primary Mission Essential Functions were approved
                by the National Security Council in June 2009. Subsequent to our
                review, and 11 months after receiving National Security Council
                approval, the Department issued its updated overarching COOP
                plan in May 2010. However, at the time of our review, many
                Department elements had still not submitted their individual
                updated COOP plans and updated plans did not always give full
                consideration to the requirements contained in Department Order
                150.1. The table below shows the status of program and field
                element COOP plans as of March 2010:
                                                      Program         Field      All Elements
                           COOP Plan Status           Elements     Elements
                    No Plan Submitted                  3      9%    1       2%     4      5%
                    Plan Submitted, but Not Updated   14    41%    29      56%    43     50%
                    Updated Plan Submitted            17    50%    22      42%    39     45%
                    Total Plans Required2             34   100%    52     100%    86    100%


                Many program and site COOP plans have not been revised to
                address critical DOE Order 150.1 requirements. As indicated in
                the table, 55 percent of all Department elements had not yet
                2
                    Source: Continuity Program Manager


Page 9                                                                 Details of Finding
                       submitted updated COOP plans. Furthermore, many of the 39
                       revised COOP plans submitted had not given full consideration to
                       all 11 planning requirements or did not provide site specific
                       information. For example, not all offices had submitted pandemic
                       plans or described their Continuity Readiness Assurance Program,
                       a program that summarizes a site's ability to respond to a COOP
                       event. In addition, we were unable to establish that COOP plans
                       had been implemented or were effective at any of the four
                       contractor field sites we visited because two of the sites had not yet
                       added the COOP Contractor Requirements Document to their
                       management and operating contracts and the other two sites were
                       still developing their COOP programs. Without adequate COOP
                       planning, Departmental elements lack assurance that they are
                       capable of maintaining mission essential functions and have tested
                       and proved this capability.

Management Attention   The COOP issues we identified were due primarily to inadequate
                       program and site office review and oversight. Additionally,
                       Department officials cited a lack of direct funding to support
                       COOP planning.

                                       Management Review and Oversight

                       Program COOP coordinators and field element managers did not
                       provide adequate oversight or enforce contractor requirements.
                       Although the Department's requirements and the implementing
                       guidance were adequately defined, management did not effectively
                       oversee and enforce their implementation. Finally, program
                       offices had not always verified whether COOP planning was
                       complete and site offices had not always ensured that COOP
                       requirements had been added to contracts. Site offices also had not
                       ensured that contractors had developed and implemented complete
                       plans. We did note that site office officials were working to
                       include the COOP Contractor Requirements Documents into their
                       management and operating contracts and provide assistance to
                       contractors in expeditiously implementing complete COOP plans.
                       While we acknowledge that progress has been made, programs and
                       sites had passed their May 2009 goal of having fully functioning
                       COOP Plans (or Implementation Plans) in place by more than a
                       year.

                                               Resource Allocation

                       Department officials also stated that continuity planning had not
                       been fully completed because the program did not have dedicated
                       monetary resources. These officials noted that while the



Page 10                                                                 Details of Finding
                 Headquarters COOP program received limited funding from the
                 Department's Emergency Operations Office to develop the
                 Department's COOP plan and assist program and field site
                 development of COOP plans, continuity planning is largely an
                 unfunded mandate. Headquarters did not allocate funding to
                 programs or sites for COOP planning, and program and site
                 officials were reluctant to complete the required planning without
                 additional dedicated funding. Site and contractor negotiations over
                 COOP funding caused delays in completing the contractor impact
                 statements and adding the COOP Contractor Requirements
                 Document to contracts.

                 Department officials also noted that a lack of dedicated funding
                 had constrained efforts to fully address some of the tactical COOP
                 issues identified through annual implementation exercises of the
                 Department's COOP plan. For instance, Ring Central, the
                 Headquarters' personnel accountability system, can only
                 accommodate 200 voice drops before someone must manually
                 empty the mailbox. To fully accommodate Headquarters program
                 elements, the offices that reported combined Federal and
                 contractor personnel in excess of this number would require the
                 Department to upgrade to a different system or program offices to
                 purchase additional mailboxes. Additionally, the Headquarters'
                 primary telework platform (Citrix Workplace) may be insufficient
                 to fully meet user needs. For example, during a pandemic
                 outbreak, a limited number of personnel would be required to
                 report to work, while all other employees would be directed to
                 utilize telework capabilities, as possible. The Department's COOP
                 plan estimates peak employee absenteeism during a pandemic
                 event could be as high as 40 percent, or approximately 3,000
                 employees at Headquarters; however, Citrix Workplace can only
                 accommodate 800 concurrent users.

Increased Risk   Failure to effectively complete COOP planning could result in the
                 Department's inability to meet its primary mission essential
                 functions related to national security. Comprehensive COOP
                 planning identifies how the Department will continue to meet its
                 essential functions in the aftermath of a major event by addressing
                 eleven elements, including personnel accountability, pandemic
                 planning, and program readiness through training, testing, and
                 exercising. These essential functions include maintaining the
                 safety and security of nuclear materials in the Department
                 Complex at fixed sites and in transit; responding to a nuclear
                 incident, both domestically and internationally; and, continuously
                 monitoring and managing the National Energy Infrastructure,
                 including the drawdown of the Strategic Petroleum Reserve and/or



Page 11                                                          Details of Finding
                  the Northeast Home Heating Oil Reserve. The importance of
                  continuity planning at all levels is underscored by recent
                  disruptions caused by major weather events around the country.
                  Non-weather related events such as the Gulf of Mexico oil release
                  or the recent wildfires at the Idaho National Laboratory further
                  reinforce the need for organizations to ensure they are ready to
                  effectively respond to emergencies and resume mission activities
                  as quickly as possible.

RECOMMENDATIONS   To promote an effective and comprehensive COOP program within
                  the Department, we recommend that the Administrator, NNSA, the
                  Acting Under Secretary of Energy, and the Under Secretary for
                  Science:

                      4. Require site offices at sites that support or perform
                         Departmental Mission Essential Functions or Primary
                         Mission Essential Functions to add the COOP Contractor
                         Requirements Document to contracts; and,

                      5. Require COOP Program or Field Element Managers, as
                         appropriate, to ensure full implementation of program, site
                         office, and contractor COOP requirements.

                  To make certain the Department can properly restore functionality
                  promptly following a continuity event, we further recommend that
                  the Administrator, NNSA, the Acting Under Secretary of Energy,
                  and the Under Secretary for Science:

                      6. Review the allocation of resources toward Continuity of
                         Operations Planning to determine if funding levels are
                         appropriate.

MANAGEMENT        The Department and the NNSA generally agreed with our
REACTION          recommendations pertaining to COOP and stated they were already
                  addressing the recommendations or agreed to address them.
                  Management partially concurred with Recommendation 4, but
                  stated that they believed the recommendation was overly broad and
                  that the COOP Contractor Requirements Document should only
                  apply to those contractors with Primary Mission Essential
                  Functions responsibilities. Management concurred with
                  Recommendations 5 and 6, but requested that these
                  recommendations be revised to direct corrective actions to the
                  appropriate Departmental officials.




Page 12                                       Recommendations and Comments
AUDITOR    As a whole, we consider management's comments and planned
COMMENTS   actions to be responsive. We recognize that site COOP planning
           contributes to the successful implementation of the Department's
           overarching COOP plan and that the COOP Contractor
           Requirements Document may not be applicable to some contracts.
           Therefore, we modified Recommendation 4 to focus only on
           applicable contracts. We revised our fifth and sixth
           recommendations to direct these actions to those officials with
           corrective action responsibility.

           Similar to the Emergency Preparedness Planning portion of this
           report, various Department elements provided attachments to
           management's consolidated comments containing additional
           information that they believed would help clarify or improve
           portions of the report pertaining to COOP planning. While we did
           not include these attachments because of their volume, we took
           them into consideration and made changes where appropriate.
           Management's consolidated comments are included in Appendix 3.




Page 13                                                         Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) had corrected previously
              reported problems and implemented an effective and
              comprehensive emergency preparedness program.

SCOPE         The audit was performed between July 2009 and September 2010
              at Department Headquarters in Washington, DC; the Los Alamos
              National Laboratory (Los Alamos) in Los Alamos, New Mexico;
              the National Nuclear Security Administration (NNSA) Service
              Center in Albuquerque, New Mexico; the Argonne National
              Laboratory (Argonne) in Argonne, Illinois; the Fermi National
              Accelerator Laboratory (Fermi) in Batavia, Illinois; and, the
              Hanford Site (Hanford) in Richland, Washington.

METHODOLOGY   To accomplish the audit objective, we:

                   Reviewed applicable Federal laws and regulations,
                    Department orders, and implementing procedures and
                    practices;

                   Reviewed prior Office of Inspector General, Government
                    Accountability Office, and Emergency Management
                    Oversight reports;

                   Evaluated the Department's actions taken in response to our
                    previous report;

                   Held discussions with Headquarters officials regarding the
                    Department's Continuity of Operations (COOP) planning
                    and emergency management;

                   Reviewed program/staff and field/site office COOP plans;

                   Reviewed and analyzed drill, exercise, and assessment
                    reports at selected sites;

                   Reviewed and analyzed information pertaining to
                    corrective action plans for drill, exercise and/or assessment
                    findings;

                   Reviewed Hazards Surveys and Emergency Planning
                    Hazards Assessments from selected sites; and,




Page 14                                  Objective, Scope, and Methodology
Appendix 1 (continued)


                          Interviewed officials from Los Alamos, Argonne, and
                           Fermi, as well as the NNSA Service Center and Hanford
                           regarding the Department's emergency management and
                           COOP planning.

                    We conducted this performance audit in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives. The audit included tests
                    of controls and compliance with laws and regulations necessary to
                    satisfy the audit objective. We also assessed compliance with the
                    Government Performance Results Act of 1993. We examined
                    performance metrics related to emergency management and found
                    that the Department had established performance measures at
                    various stages, but that these performance metrics were not widely
                    used. Because our review was limited, it would not have
                    necessarily disclosed all internal control deficiencies that may have
                    existed at the time of our audit. We did not rely on computer
                    processed information to achieve our audit objective.

                    The Department and NNSA waived an exit conference.




Page 15                                         Objective, Scope, and Methodology
Appendix 2

                                  PRIOR AUDIT REPORTS


Office of Inspector General Related Reports:

     Fire Suppression and Related Services at Los Alamos National Laboratory (DOE/IG-
      0821, September 2009). The Department of Energy's (Department) Los Alamos National
      Laboratory (Los Alamos) operates in unique hazard environments, to include special
      nuclear materials, explosives, and hazardous chemicals, that create special fire
      suppression and emergency management challenges. The Office of Inspector General
      initiated an inspection to determine if fire suppression and related services at Los Alamos
      are assured through contractual arrangements with the county. The report noted that fire
      fighters did not receive the necessary and required training for fighting fires at Los
      Alamos, including facility specific training; that pre-incident plans lacked the information
      necessary for fire fighters to effectively respond to incidents; and that Los Alamos's fire
      fighting capability had not been sufficiently demonstrated through
      exercises and documented assessments.

     The Department of Energy's Pandemic Influenza Planning (DOE/IG-0784, December
      2007). Pandemic planning is required of all Federal agencies that perform mission-
      critical functions. Only 50 percent of the seventy-two (72) organizations required to
      submit pandemic plans by June 1, 2007, had submitted plans. At the time of the
      inspection, no Department order required elements to implement a pandemic influenza
      plan within their Continuity of Operations (COOP) plan. The audit also disclosed that
      during a 2007 COOP exercise, the Department could not account for all Federal and
      contractor employees.

     Continuity of Operations at Bonneville Power Administration (DOE/IG-0781, November
      2007). The audit concluded that the Bonneville Power Administration's (Bonneville)
      continuity of operations capability was not fully compliant with Federal Preparedness
      Circular 65 for all of its essential functions. Bonneville's primary and alternate facilities
      for power scheduling were interdependent as well as in close proximity and, therefore,
      were subject to the same hazards. Additionally, Bonneville's plan to recover transmission
      scheduling from disruptions to its primary automated system relied in part on a manual
      process rather than a fully automated system as required.

     The Department of Energy's Use of the Strategic Petroleum Reserve in Response to
      Hurricanes Katrina and Rita (DOE/IG-0747, December 2006). After Hurricanes Katrina
      and Rita impacted the Strategic Petroleum Reserve (SPR), an audit was initiated to
      determine whether the SPR met its energy security mission in response to Hurricanes
      Katrina and Rita. The SPR was generally effective at meeting the emergency
      requirements; however, the SPR alternate operating facility was also impacted by
      Hurricane Katrina, which interrupted mission essential computer networks.




Page 16                                                                     Prior Audit Reports
Appendix 2 (continued)

     The Department's Continuity Planning and Emergency Preparedness (DOE/IG-0657,
      August 2004). The audit disclosed that the sites visited did not have comprehensive
      continuity plans in place and that the Department had not implemented guidance
      specifically requiring sites to have such plans in effect. Requirements for verifying and
      validating corrective actions, tracking performance measures, and sharing lessons learned
      were not properly defined.

Government Accountability Office Related Reports:

     Influenza Pandemic: Increased Agency Accountability Could Help Protect Federal
      Employees Serving the Public in the Event of a Pandemic (GAO-09-404, June 2009).
      The Government Accountability Office (GAO) conducted a study of the 24 Chief
      Financial Officer Act agencies regarding the readiness of Federal agencies to protect
      Federal workers and maintain operations in the event of a pandemic influenza event.
      GAO found that all of the agencies are taking steps to some degree to protect their
      workers, but the progress is disproportionate between agencies. The Department is one
      of the 11 agencies that reported testing telework arrangements to a moderate extent.

     Continuity of Operations: Selected Agencies Tested Various Capabilities during 2006
      Governmentwide Exercise (GAO-08-185, November 2007). The Federal Emergency
      Management Agency conducted an exercise, titled Forward Challenge 06, to test
      continuity of operations plans at Federal agencies. GAO was asked to review this
      exercise and to describe the extent to which agencies tested continuity plans and
      procedures, personnel, and resources. GAO found that many agencies reported
      performing necessary activities; however, there was a general lack of documentation of
      these procedures being followed.

     Continuity of Operations: Agency Plans Have Improved, but Better Oversight Could
      Assist Agencies in Preparing for Emergencies (GAO-05-619T, April 2005). GAO
      conducted this review as a follow-up to previous work on emergency planning by Federal
      agencies and found that while there were improvements since their 2002 review, many
      weaknesses and inconsistencies still existed. They noted that although agencies reported
      using sound practices, few actually documented these practices. GAO also found
      inconsistencies in essential functions identified; however this was partially attributed to
      the lack of specificity in Federal Emergency Management Agency guidance on COOP.




Page 17                                                                    Prior Audit Reports
Appendix 3




Page 18      Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
Appendix 3 (continued)




Page 21                  Management Comments
Appendix 3 (continued)




Page 22                  Management Comments
                                                                    IG Report No. DOE/IG-0845

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
